Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives



                          Update on FAA’s Progress
For Release on Delivery
Expected at
10:00 a.m. EDT
Wednesday
September 12, 2012        and Challenges in
                          Advancing the Next
CC-2012-027



                          Generation Air
                          Transportation System


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

Thank you for inviting me here today to testify on the Federal Aviation Administration’s
(FAA) progress in developing the Next Generation Air Transportation System
(NextGen)—a system that is expected to provide safer and more efficient air traffic
management. As you know, NextGen is FAA’s most complex effort to date and will
require multibillion-dollar investments from both the Federal Government and airspace
users.

Since the effort began in fiscal year 2004, we have reported on cost and schedule risks as
well as challenges that FAA must address to successfully transition from legacy air traffic
systems to NextGen. In September 2009, a Federal Government-industry task force—
established at FAA’s request—recommended several strategies for accelerating
NextGen’s benefits in the near term. However, last October, we testified that delivering
near-term benefits and resolving problems with ongoing projects continue to challenge
FAA. 1 While FAA has taken important steps over the past year to improve the
management of NextGen, such as establishing a new program management office, the
Agency has made limited progress in shifting from planning to actual implementation and
delivering benefits to airspace users.

Today, I will focus on three key challenges that continue to impact FAA’s ability to
realize NextGen’s benefits: (1) implementing NextGen capabilities at congested airports,
(2) resolving technical and program management problems with the En Route
Automation Modernization (ERAM) program, and (3) managing program costs and
schedules in developing and implementing NextGen’s transformational programs.

IN SUMMARY
FAA has made progress in improving air traffic management at congested airports in
major cities—one of the task force’s most critical recommendations. For example, FAA
has completed studies to identify recommended changes for seven metroplex locations
and is performing airspace and procedures design work at six of them. However, industry
representatives are concerned that the effort may not deliver all desired benefits and that
FAA has not yet integrated metroplex with other related initiatives, such as better
managing surface operations. Additionally, FAA has not fully resolved key
organizational, policy, and training barriers to implementing NextGen capabilities in the
near term. Central to realizing benefits from the task force recommendations and other
NextGen initiatives is the successful deployment of ERAM—a multibillion dollar
program for processing flight data. However, extensive software-related problems have
significantly delayed ERAM’s nationwide deployment, resulting in hundreds of millions
of dollars in increased costs. FAA is taking steps to address our concerns about a number
of ERAM programmatic and contract management issues, such as modifying its contract

1
    OIG Testimony Number CC-2011-036, “Progress and Challenges in Developing to the Next Generation Air Transportation
    System,” October 5, 2011. OIG reports and testimonies are available on our Web site at http://www.oig.dot.gov/.


                                                                                                                         1
to better track costs, but considerable risks remain to complete the effort within the
Agency’s revised cost and schedule parameters. FAA faces similar cost and schedule
risks with its NextGen transformational programs, as the Agency has not approved total
cost, schedule, or performance baselines for any of the programs or developed an
integrated master schedule for managing and executing NextGen.

BACKGROUND
NextGen involves a significant overhaul of the National Airspace System (NAS) to shift
from ground- to satellite-based air traffic management. This effort includes several
components, such as:

• Redesigning airspace and deploying new performance-based flight procedures,
• Developing systems to help controllers better manage air traffic, and
• Providing critical technologies and infrastructure for NextGen.

As shown in the following table, FAA has several NextGen initiatives and programs
under way that are expected to deliver benefits to the NAS.

Table. Examples of Key NextGen-Related Initiatives and Programs

          Initiative/Program                                             Expected Benefits
Metroplex Airspace                          Improve the efficiency of airspace that affects multiple airports near
                                            large metropolitan areas.
Airport Surface Operations                  Improve the management of airport taxiways, gates, and parking
                                            areas.
Data Communications                         Provide 2-way data communication between controllers and flight
(DataComm)                                  crews for improved cruise and transition operations to enable more
                                            efficient use of available or forecast capacity in the NAS.
ERAM                                        Replace and significantly enhance existing software at the 20 FAA
                                            Centers that manage high-altitude air traffic. ERAM is FAA’s key
                                            platform for NextGen to process flight data across the NAS.
Automatic Dependent                         Enhance information about aircraft location for pilots and air traffic
Surveillance-Broadcast (ADS-B)              controllers using satellite-based surveillance technology.
System Wide Information                     Provide a more agile exchange of information through a secure,
Management (SWIM)                           NAS-wide information web that will connect FAA systems with other
                                            agencies and airspace users.
Source: OIG analysis

In 2009, FAA asked an RTCA 2 task force to reach consensus on the NextGen operational
improvements planned for 2012 to 2018, help develop plans to maximize NextGen
benefits, and justify investment in mid-term capabilities. The task force made

2
    Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc., is a private, not-for-profit corporation
    that develops consensus-based recommendations regarding communications, navigation, surveillance, and air traffic
    management (CNS/ATM) system issues. It functions as a Federal advisory committee.


                                                                                                                                2
32 recommendations and stated that focusing on delivering near-term operational
benefits, rather than major infrastructure programs, would help gain industry confidence
in FAA’s plans and encourage users to invest in NextGen. The task force also
emphasized the need to assign responsibility, accountability, authority, and funding
within the Agency to accomplish all required non-infrastructure tasks, such as developing
needed policies and procedures.

Recently, we reported that FAA is facing challenges with implementing near-term
NextGen capabilities, which could delay benefits, 3 and that FAA has not yet established
total program costs, schedules, or performance baselines for any of the six NextGen
transformational programs, which limits visibility into the total costs and timelines
required to achieve benefits. 4

CHALLENGES REMAIN FOR FAA IMPLEMENTATION OF NEXTGEN
CAPABILITIES IN THE NEAR TERM AT CONGESTED AIRPORTS
FAA has made important progress in responding to the task force recommendations to
improve air traffic management at congested airports by aligning budgets and plans,
completing airspace and procedure studies at specific airports, and performing design
work. However, FAA’s efforts have been delayed in several critical areas, including
airspace affecting multiple airports near large metropolitan areas, airport surface
operations, and data communications. In addition, FAA has not fully addressed key
barriers to implementing task force recommendations, which could further delay the
delivery of much needed benefits at congested airports.

FAA Has Responded to Task Force Recommendations by Aligning Budgets
and Plans and Performing Study and Design Work at Specific Airports
Within 4 months of the RTCA report, FAA issued a plan to implement all
recommendations and incorporated its response in its NextGen Implementation Plan, 5 as
recommended by the task force. In addition, FAA allocated over $600 million in funding
for fiscal years 2011 and 2012 to fund task force-related activities. Further, FAA
established the NextGen Advisory Committee (NAC) 6 to address the task force’s
recommendation for providing a mechanism for continued industry collaboration.

FAA has made progress in improving airspace around congested airports in major
cities—one of the task force’s most critical recommendations. The task force and FAA

3
    OIG Report Number AV-2012-167, “Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports
    Could Delay Benefits,” August 1, 2012.
4
    OIG Report Number AV-2012-094, “Status of Transformational Programs and Risks to Achieving NextGen Goals,” April 23,
    2012.
5
    FAA’s NextGen Implementation Plan is an annual plan that sets out FAA’s vision for NextGen, now and into the midterm.
    The plan further identifies the goals FAA has set for technology and program deployment and the commitments FAA has
    made in support of that vision.
6
    The NAC is a Federal advisory committee that will develop recommendations for NextGen priorities with an emphasis on the
    midterm (through 2018). The NAC includes representation from affected user groups, including operators, manufacturers, air
    traffic management, aviation safety, airports, and environmental experts.


                                                                                                                             3
identified the metroplex initiative as a key area that could provide the most near-term
benefits by improving traffic flow and reducing delays at congested airports in 13 major
metropolitan areas. 7 Work at each of these 13 sites will consist of study8 and design
phases 9 that will take about 3 years at each location. FAA has completed initial studies at
7 of the 13 locations and is performing design work at 6 of these locations. 10 Since we
testified last October, FAA developed an operational plan with milestones for this effort
and began one additional study—the South Florida metroplex.

Work Remains in Areas Critical for Improving NAS Performance
Despite FAA’s progress, significant work remains on the metroplex initiative as well as
other critical areas, such as airport surface operations and data communications.

• Metroplex Airspace (Improve airspace affecting multiple airports near large
  metropolitan areas). The expected completion date for all metroplex sites is
  15 months later than previously planned. FAA’s early plans were to complete work at
  all metroplex sites by June 2016; however, the Agency postponed completion to
  September 2017 because it determined the initial schedule was too aggressive. FAA
  also reduced the number of metroplex sites from 21 to 13. 11 For example, a critical
  site with systemwide impacts, such as New York, is not included in FAA’s current
  metroplex effort due to a major ongoing airspace and procedures project. This project
  has been ongoing for several years due to public concerns about the environmental
  impact on the area.

       Additionally, industry representatives are concerned that the metroplex effort may not
       deliver all planned or desired benefits because FAA has focused solely on limited
       airspace and procedure improvements, rather than implementing advanced
       procedures, as recommended by the task force. For example, of the 136 solutions
       proposed for the first 7 metroplex sites, only 3 involve more advanced procedures that
       allow aircraft to fly more precise routes and curved approaches to airports. Further,
       FAA has not yet integrated efforts from other related initiatives, such as better
       managing surface operations, into its metroplex initiative. In October 2010, over
       1 year after the task force report, FAA tasked the NAC to develop recommendations
       on how FAA can better integrate its efforts. FAA expects recommendations from the

7
     Washington, DC; North Texas (Dallas); Charlotte; Atlanta; Northern California; Houston; Southern California; Chicago; South
     Florida; Boston; Cleveland/Detroit; Memphis; Phoenix.
8
     Study teams are the first step in the metroplex process to provide a front-end strategic look at each major metroplex. These
     teams analyze the operational challenges, assess current/planed airspace and procedures efforts, explore new solution
     opportunities, and issue a study report with recommended procedure and airspace solutions.
9
     Design and implementation teams are responsible for executing the design, evaluation, and implementation portions at each
     metroplex site.
10
     The seven locations are Washington, DC; North Texas (Dallas); Charlotte; Northern California; Houston, Atlanta, and
     Southern California. Design work has begun at Washington, DC; North Texas; Charlotte; Houston; Atlanta; and Northern
     California.
11
     FAA reduced the number of metroplex projects from 21 to 13 by combining some and dropping others because of other
     ongoing airspace and performance-based navigation initiatives. The sites dropped were: New York/Philadelphia, Minneapolis-
     St. Paul, Seattle, and Las Vegas Valley.


                                                                                                                               4
       NAC in September 2012 on the committee’s recently completed work to map
       NextGen capabilities to specific metroplex sites.

• Airport Surface Operations (Improve management of airport taxiways, gates, and
  parking areas). FAA did not designate an office director with responsibility for
  implementing surface initiatives until March 2011—18 months after the task force
  recommended it as a high priority. Currently, FAA’s ongoing surface management
  projects span multiple air traffic organizations without a coordinated plan.
  Representatives in FAA’s surface operations office are working to coordinate their
  efforts within the air traffic organizations responsible for these projects, but it is not
  yet clear how or if they will integrate their efforts with the metroplex initiative.

• Data Communications (DataComm) (Enable more efficient use of available or
  forecast capacity). Due to delays in modernizing automation that controllers use to
  manage high-altitude air traffic, FAA’s timeline for developing this capability slipped
  by 2 years, from 2016 to 2018. Industry representatives stated that they need
  assurance that FAA’s revised implementation date for high altitude traffic
  management is attainable. They view DataComm as the key building block for
  improved communications needed to shift to NextGen’s concept of more precisely
  managing aircraft from departure to arrival, with the benefits of reduced fuel
  consumption, lower operating costs, and reduced emissions.

For recommendations related to runway access and high-altitude cruise, FAA is not
planning to follow the timelines and locations recommended by the task force, because
the Agency determined it needed to perform its own cost-benefit analysis before
accepting the recommendations.

• Runway Access (Improve the use of converging or closely spaced runways during
  low visibility conditions). Making better use of existing runways, as RTCA
  recommended, requires updated safety studies for new, complex runway
  configurations—such as closely spaced parallel runways 12 and converging or
  intersecting runways—at several busy airports. While the Agency adopted the task
  force’s recommended dates and locations for closely spaced parallel runway projects,
  it has not defined locations and dates for implementing other key recommendations,
  such as a precision surveillance system for runways and a new automated tool to
  maximize benefits of routes. FAA stated this is due to the need to perform cost-
  benefit analysis and further safety studies.

• High-Altitude Cruise (Improve high-altitude flight by better using available
  airspace to increase capacity and reduce delays). The task force recommended that
  FAA take action in 2011 to expand the use of an existing high-altitude automated
  controller tool for managing aircraft. Instead, FAA focused its actions on

12
     Closely spaced parallel runways are those in which the centerlines are separated by less than 4,300 feet.


                                                                                                                 5
       implementing a longer-term solution called Time-Based Flow Management. 13 FAA’s
       target implementation date for this system is November 2014, about 3 years beyond
       the timeframes recommended by the task force.

Given these delays, task force representatives remain concerned with the Agency’s
overall timelines for NextGen. For example, the task force stated that if some DataComm
capabilities are delayed to 2018, as FAA has currently proposed, airspace users will need
to revisit their business cases and commitment to advance NextGen. Task force industry
representatives have also emphasized the need for FAA to shift from planning to
implementation, as meeting implementation milestones will be critical to securing
operator investment.

FAA Has Not Fully Resolved Key Organizational, Policy, and Training
Barriers To Implementing Task Force Recommendations
FAA has not yet resolved many of the barriers that will impede the implementation of the
task force recommendations. These barriers include working across diverse Agency lines
of business, streamlining the process for implementing new flight procedures, updating
policies, and training controllers on new advanced procedures. While FAA has plans to
address these barriers, progress has been slow, and none of these initiatives have been
fully implemented.

• Working across diverse lines of business. To complete the task force’s
  recommendations, FAA will have to coordinate with various organizations within the
  Agency—including its Aircraft Certification Service, Flight Standards Service, and
  Air Traffic Organization (ATO). Such coordination has been a challenge for FAA in
  the past. For example, as we testified in July 2009, organizational barriers and
  fragmented efforts hindered FAA’s process for approving new flight procedures. 14 To
  address these concerns and other NextGen-related problems that we have reported, in
  September 2011, FAA began making significant organizational changes in how it
  manages NextGen. However, given the scope of FAA’s effort, the Agency needs a
  reasonable amount of time before it can fully implement these organizational changes
  and ensure it achieves the desired outcome of working effectively across different
  lines of business.

• Implementing new flight procedures. FAA’s process for developing and
  implementing new flight procedures is time-consuming and fragmented. In September
  2010, 15 FAA reported that it planned to implement 21 recommendations made by
  6 internal work groups for streamlining its process to develop and deploy these
  procedures. However, FAA has yet to implement the majority of the

13
     Time Based Flow Management enhances system efficiency and improves the traffic flow by leveraging the capabilities of
     controller decision support tools designed to optimize the flow of aircraft into capacity constrained areas.
14
     OIG Testimony Number CC-2009-086, “Challenges in Implementing Performance-Based Navigation in the U.S. Air
     Transportation System,” July 29, 2009.
15
     FAA’s Navigation Procedures (NAV Lean) Instrument Flight Procedures Final Report, September 2010.


                                                                                                                             6
       recommendations and estimates it may take as long as 4 years to implement all of
       them. FAA has recently begun to determine flight procedure utilization rates and
       examine causes for a lack or drop in usage for advanced performance-based flight
       procedures—an issue we raised in December 2010. 16 We recently initiated an audit to
       update our prior work on FAA’s implementation of new flight procedures and the
       Agency’s efforts to streamline the process. 17 We will continue to monitor the
       Agency’s progress in this critical area.

• Updating key policies. The task force encouraged FAA to continue to develop a
  “best-equipped, best-served policy”—that is, prioritize air traffic control services for
  those users equipped with new systems—and revamp information sharing systems to
  better manage airport surfaces. FAA recognizes the importance of these issues and
  continues to work with industry to reach consensus on strategies concerning equipage
  for NextGen and to identify processes and standards for data sharing. However, FAA
  does not yet have a clear plan for transitioning to the new policies.

       Additionally, many air traffic control policies and procedures have not been updated
       to incorporate the increased capabilities of satellite-based technologies. For example,
       FAA has not updated the controller handbook to provide guidance on phraseology,
       separation, and other requirements to safely manage performance-based operations in
       a mixed equipage environment.

• Training controllers on new advanced procedures. While FAA has begun training
  controllers on NextGen initiatives, FAA’s training on existing and emerging advanced
  procedures has been limited. National Air Traffic Controllers Association officials
  stated that training on new performance-based flight procedures should be timely and
  include simulator training to be effective. Yet, FAA’s recent NextGen-related training
  often consisted solely of high-level briefings. Without comprehensive training and
  familiarity with the new instrument flight procedures, controllers are reluctant to
  allow pilots to use these procedures—especially in a mixed equipage environment,
  where many aircraft are not equipped or approved to use the new procedures.

If FAA does not resolve these issues, its metroplex effort and implementation of other
recommendations will likely face delays, and benefits may not be realized within
recommended timeframes. In an August 2012 report, we made recommendations to
improve FAA’s ability to effectively implement the task force’s recommendations and
resolve barriers in a timely manner. 18 FAA agreed to integrate other NextGen capabilities
into its metroplex initiative when they mature, streamline its metroplex process where


16
     OIG Report Number AV-2011-025, “FAA Needs To Implement More Efficient Performance-Based Navigation Procedures
     and Clarify the Role of Third Parties,” December 10, 2010.
17
     OIG Audit Announcement Number 12A3007A000, “Audit Initiated of FAA’s Efforts to Streamline its Processes for
     Implementing New Performance-Based Flight Procedures,” May 09, 2012.
18
     OIG Report Number AV-2012-167, “Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports
     Could Delay Benefits,” August 1, 2012.


                                                                                                                         7
possible, and report barriers identified at each metroplex site to appropriate offices for
resolution.

UNRESOLVED PROBLEMS WITH ERAM CONTINUE TO IMPACT THE
COST AND PACE OF NEXTGEN
Central to realizing benefits from FAA’s NextGen efforts is the successful
implementation of ERAM—a multibillion dollar enabling program for processing flight
data. However, extensive software-related problems have significantly delayed ERAM’s
nationwide implementation, resulting in hundreds of millions of dollars in increased
costs. While FAA is making progress in using ERAM to manage air traffic at several
locations, it has not fully resolved critical software-related issues that impact the system’s
ability to separate and control aircraft. These problems raise significant concerns about
the Agency’s program management and contract oversight. Prolonged problems with
ERAM also pose risks to other NextGen initiatives.

ERAM Software-Related Problems Have Caused Cost Overruns and
Schedule Delays
ERAM is up and running at nine sites—full-time at five sites 19—a significant step
forward since testing at the two key initial sites in Salt Lake City and Seattle revealed
extensive software problems with the system’s core capabilities to safely manage aircraft.
Recent progress at the two initial sites has also allowed FAA to decommission legacy
systems at these locations. FAA’s progress with ERAM is largely due to a sustained
commitment by senior leadership to resolve problems, improve risk mitigation, and work
closely with controllers. However, the facilities using ERAM continue to identify
software problems, such as errors that display flight data to the wrong aircraft and aircraft
handoff problems among facilities, which distract controllers from their primary task of
safely managing aircraft. As a result, FAA is currently spending about $24 million a
month in deploying ERAM, integrating other systems, and fixing identified problems. In
June 2011, FAA rebaselined ERAM, estimating that the cost to complete the program
would increase by an additional $330 million. FAA now believes that it can deploy
ERAM at the remaining 11 sites by the end of fiscal year 2013, completing deployment
and declaring the system operationally ready nationwide by 2014—a delay of nearly
4 years from the original schedule of December 2010. However, our work and a study by
the MITRE Corporation show that if problems persist, cost increases could exceed
$500 million and further delay implementation.

Input from controllers and technicians at the nine sites currently using ERAM, along with
the national user work group, have identified and reported in excess of 900 new
high-priority software issues that need to be addressed. Until FAA is able to assess these
new issues and determine the nature and extent of corrective actions needed, the impact
to the ERAM cost and schedule is unknown. Moreover, in the fall of 2012, FAA will

19
     The five sites are Albuquerque, Denver, Minneapolis, Salt Lake City, and Seattle.


                                                                                            8
resume deployment of the remaining sites, such as New York and Boston—several of
which are even more complex than any of the previous locations. The addition of all the
remaining sites will likely result in the identification of new problems, which raises the
risk that program costs will grow.

In March 2012, FAA’s Joint Resources Council (JRC) 20 approved funds for ERAM
software release 4 that will add additional NextGen capabilities and address software
problems. This new ERAM software package is projected to cost in excess of
$400 million in capital costs alone and will include work that will extend past fiscal year
2016. However, FAA documentation shows that a portion of those funds—in addition to
the $330 million already added to the program baseline—will be used to address ERAM
maintenance problems and other software changes.

Problems With ERAM Exposed Fundamental Weaknesses in Program
Management and Contract Oversight
Our ongoing work shows that initial problems with ERAM were directly traceable to
weaknesses in program management and contract oversight. During ERAM’s planning
and deployment stages, FAA did not establish program management controls that would
put FAA in a position to address significant problems as they occurred. For example:

• FAA and its contractor significantly underestimated the complexity in fielding
  ERAM. They were overly optimistic that ERAM could be fielded to all 20 sites
  within 1 year, and did not consider the impact of early problems during initial site
  deployment.

• Software testing at FAA’s Technical Center was too limited to allow FAA to fully
  understand the maturity and stability of the software prior to deployment. As a result,
  the software was released to the key sites with significant defects.

• FAA did not implement required program management tools to ensure ERAM would
  achieve performance and schedule goals. First, the program office did not review the
  ERAM budget when major increases in contract value occurred (those over
  $100 million). FAA will now conduct detailed budget reviews for all major contract
  modifications. Second, FAA did not correctly implement earned value management
  (EVM), which OMB and FAA require for all major information technology
  investments. EVM is a management tool intended to forecast performance trends and
  help managers identify cost and schedule problems early on. FAA’s EVM
  measurement baseline was based on the contract’s structure, rather than the overall
  program structure and milestones, as required by EVM standards. As a result, the
  EVM system did not detect significant schedule and cost variances, which began to
  occur when the program experienced software problems at the initial key test site.
  Third, FAA’s risk management process did not begin to detect and mitigate

20
     The JRC is an FAA executive governance board responsible for the approval and oversight of major systems acquisitions.


                                                                                                                              9
    significant risks, such as not achieving deployment milestones for ERAM at key sites
    due to core functionality software issues, until almost 2 years after software problems
    surfaced at a key test site. Recently, FAA’s new program manager significantly
    improved ERAM’s risk management process by providing a more accurate portrayal
    of active ERAM risks.

In addition to lacking critical program management controls, FAA did not structure or
administer its ERAM contract to effectively manage costs and achieve desired outcomes.
For example:

• FAA did not fully adopt best practices for major information technology acquisitions
  when designing ERAM’s contract structure. Specifically, FAA did not fully apply
  modular contracting concepts, which call for dividing a large contract into
  manageable contract segments delivered in shorter increments. Instead, FAA designed
  larger contract segments that could span several years, an approach that does not offer
  as much flexibility. In May 2012, in response to our draft audit report on ERAM,
  FAA modified the ERAM contract to implement a more modular structure for
  contract segments related to software development. However, other line items in the
  contract could also benefit from a modular approach.

• ERAM’s cost incentive fee did not motivate the contractor to stay below predefined
  cost targets because FAA simply increased the target costs as requirements grew. At
  the time of our review, FAA paid the contractor over $150 million in cost incentives
  for meeting target costs even though ERAM costs exceeded the budget by at least
  $330 million. In May 2012, FAA modified the ERAM contract to revise its incentive
  fee structure related to new ERAM software releases. A significant portion of the cost
  incentive is now being allocated to five performance targets for new software
  releases.

Prolonged Problems With ERAM Pose Risks to NextGen Initiatives
ERAM’s implementation is central to realizing the key benefits of several other
programs, such as new satellite-based surveillance systems and data communications for
controllers and pilots. Continued problems with ERAM have already had implications for
FAA’s NextGen transformational programs, such as DataComm and ADS-B. FAA plans
to allocate almost $500 million to integrate and align these systems with ERAM. In
addition to the transformational programs, delays with ERAM will impact other NextGen
efforts, including the following:

•   Implementing FAA’s new performance-based navigation routes and procedures that
    allow aircraft to fly more flexible routes, based on aircraft avionics and satellite-based
    navigation. New performance-based navigation routes are an important stepping stone
    for near-term NextGen initiatives and boosting capacity at already congested airports.



                                                                                           10
   New automated systems for controllers, such as ERAM, are key to maximizing the
   benefits of new routes.

• Managing aircraft strategically through all phases of flight through trajectory-based
  operations. This capability is expected to predict the path of each aircraft in time and
  space and thereby facilitate the transition from today’s ground-based radar to more
  accurate satellite-based systems and reduce fuel consumption by the airlines and
  aircraft emissions. Progress with ERAM is important because this new way of
  managing traffic will require many other systems to use flight information from
  ERAM.

• Introducing new capabilities at facilities that manage high-altitude traffic, such as
  flexible and dynamic airspace that will allow controllers to shift airspace segments to
  other controllers based on weather and traffic pattern changes. However, FAA must
  fix core capabilities for managing aircraft before the new capabilities can be
  implemented.

• Combining both terminal and en route operations into a common automation system.
  Currently, FAA operates and maintains diverse automation systems with unique
  displays, software, and hardware. FAA believes that a common automation platform
  will reduce costs, improve air traffic and airspace management, and allow the Agency
  to consolidate and realign its facilities. Problems with ERAM contribute significantly
  to FAA’s inability to determine when it can begin to develop and transition to a
  common automation platform.

Schedule delays and corresponding cost growth with ERAM have forced FAA to
reprogram funds from other FAA capital programs. According to Agency officials
responsible for capital planning and budgeting, FAA thus far has reallocated funds from
development efforts for NextGen capabilities and procedures, tower replacement,
electrical power systems for air traffic control facilities, and planned technical
improvements to communications and oceanic automation systems. Continuing cost
growth with ERAM, especially in the current budget environment, will crowd out other
capital programs.

Throughout the course of our work, we communicated our views to FAA officials on
actions needed to reduce programmatic risk and strengthen contract oversight. In
response, FAA is taking steps to address our concerns. For example, FAA has made
strides toward improving the way it tracks ERAM costs by modifying the contract to
begin definitizing its implementation efforts. However, achieving NextGen’s goal of
more efficient airspace for the future will ultimately depend on FAA’s ability to
effectively manage, within cost and schedule, large-scale acquisitions such as ERAM to
support its NextGen portfolio.




                                                                                       11
COSTS, SCHEDULES, AND BENEFITS ARE UNCERTAIN FOR
NEXTGEN’S TRANSFORMATIONAL PROGRAMS
Between fiscal years 2013 and 2017, FAA plans to spend $2.4 billion on NextGen’s six
transformational programs. While FAA is making some progress implementing these
programs, their costs, schedules, and performance remain uncertain because FAA has yet
to baseline the total programs or develop an integrated master schedule to manage and
coordinate NextGen’s implementation. Three programs in particular—ADS-B, SWIM,
and DataComm—will provide critical technologies and infrastructure for NextGen and
allow for more efficient data sharing among airspace users, a key NextGen goal.

FAA Has Not Fully Addressed ADS-B Requirements and System Risks
Successful implementation of ADS-B—a satellite-based surveillance technology that
combines the use of aircraft avionics and ground-based systems—will require resolving
critical issues related to system requirements and security risks. FAA plans to implement
ADS-B in four segments and has approved approximately $2.7 billion through 2020 for
the initial three segments to deploy the system’s ground infrastructure, develop baseline
services and applications, and expand services in the Gulf of Mexico.

As of July 2012, FAA has deployed 400 of the planned 730 radio ground stations, and the
Agency published a final rule mandating airspace users to equip ADS-B avionics by
2020. However, as we have previously reported, 21 FAA faces a number of challenges to
realize the full range of ADS-B benefits. These include (1) finalizing requirements for
capabilities to display traffic information in the cockpit, (2) modifying the systems
controllers rely on to manage traffic, (3) addressing broadcast frequency congestion
concerns, (4) implementing procedures for separating aircraft, and (5) assessing security
vulnerabilities. We recently initiated an audit to update our prior work on FAA’s
implementation of ADS-B and will continue to monitor the Agency’s progress in these
critical areas. 22

FAA Faces Challenges in Establishing Clear Lines of Accountability for
Managing and Implementing SWIM
While FAA recently revised its implementation strategy for the SWIM program, key
challenges remain in stabilizing requirements and establishing firm timelines. SWIM is
expected to form the basis for a secure network that manages and shares information
more efficiently among the air traffic systems that will comprise NextGen. Key benefits
expected from SWIM are streamlined data communications and real-time information
that will improve air traffic management, enhance airspace capacity, reduce flight delays,



21
     OIG Report Number AV-2011-002, “FAA Faces Significant Risks in Implementing Automatic Dependent Surveillance-
     Broadcast System and Realizing Benefits,” October 12, 2010.
22
     OIG Audit Announcement Number 12A3004A000, “Audit Initiated of FAA’s Automatic Dependent Surveillance – Broadcast
     (ADS-B) Program,” May 14, 2012.


                                                                                                                   12
and decrease costs for FAA and aviation users. In June 2011, 23 we reported that FAA had
yet to establish clear lines of accountability for overseeing SWIM’s development and
management, making it difficult to implement requirements and control the program’s
cost and schedule. As a result, FAA increased costs for SWIM’s first segment by more
than $100 million (original estimate was $179 million) and delayed its completion by at
least 2 years.

Since our 2011 report, FAA has revised its implementation approach, due in part to cost
and schedule issues with ERAM. FAA now plans to develop and deploy a new system to
provide SWIM en route flight plan services without impacting ERAM. Additionally,
FAA has approved an additional $120 million to support the first phase of the second
segment, which will assist FAA in transitioning to a new common infrastructure for
SWIM air traffic systems. This is a critical first step in FAA’s goal of moving from a
decentralized to a centralized process where all NAS data are managed and shared over a
common infrastructure to support NextGen improvements. However, FAA’s previous
management challenges remain. Without stable and consistent requirements and clearly
defined program priorities, the true cost and timeline to deploy SWIM and the realization
of expected benefits will continue to be unknown.

FAA Faces Industry Concerns With DataComm Plans
Developing and implementing DataComm will be a complex, high-risk effort, and
industry officials have expressed skepticism about FAA’s ability to deliver the program.
DataComm will provide two-way data communications between controllers and pilots,
similar to wireless e-mail. Like ADS-B, FAA faces challenges with integrating
DataComm with multiple FAA automation systems. Total acquisition costs for
DataComm are uncertain, but FAA estimates that they could be as much as $3 billion.

FAA plans to implement DataComm in two segments. In May 2012, the Agency
approved approximately $741.5 million through 2019 for the first phase of segment one
to implement departure clearance services in the tower environment. However, this phase
relies on using a data link capability that already exists, which the Agency acknowledges
provides limited benefits. The majority of NextGen benefits from DataComm will
emerge from the second phase of segment one, which will support the development of en
route services. However, FAA has already delayed plans to deploy DataComm’s en route
capabilities from 2016 to 2018, and the Agency has yet to schedule a final investment
decision for this phase to approve the effort’s cost and schedule.

Until FAA makes a final investment decision on when the majority of the benefits for the
en route services (e.g., routine data communications) will be provided, users are likely to
remain skeptical and reluctant to equip—especially since the Agency abandoned a similar


23
     OIG Report Number AV-2011-131, “FAA’s Approach to SWIM Has Led to Cost and Schedule Uncertainty and No Clear Path
     for Achieving NextGen Goals,” June 15, 2011.


                                                                                                                  13
communications program 24 in 2005 due to concerns about cost growth and schedule
delays. These concerns resulted from unplanned, additional integration requirements that
posed a risk to the program as well as concerns over how quickly airlines would equip
with the avionics. 25

FAA Lacks an Integrated Master Schedule To Manage NextGen
Dividing larger programs into smaller more manageable segments—as FAA has done for
ADS-B, SWIM, and DataComm—can reduce some risks in the short-term. However, this
approach also obscures visibility into the true total timelines and costs of FAA’s overall
NextGen efforts. As requirements continue to evolve, programs are left with no clear
end-state, and decisionmakers lack sufficient information to assess progress. Moreover,
delays with one program can significantly slow another, since the programs have
complex interdependencies with FAA’s existing automation and communications
systems.

In an April 2012 report, we recommended that FAA establish firm costs and schedules
and an integrated master schedule to manage the implementation of all NextGen
programs. 26 Since our report, FAA has begun developing an integrated schedule and
populating it with some of the transformational programs’ planned capabilities. However,
the Agency continues to identify the additional type of data required, such as key system
dependencies, to fully populate the schedule. Without a complete master schedule, FAA
will continue to be challenged to fully mitigate operational, technical, and programmatic
risks, and prioritize trade-offs among its NextGen programs.

CONCLUSION
While FAA has demonstrated its commitment to improve the management of NextGen
and its major acquisitions, the Agency continues to face significant challenges and risks
with developing and implementing NextGen initiatives and delivering the benefits
envisioned by the RTCA task force. FAA’s efforts to reorganize to better manage
NextGen are in the early stages, and must be done in concert with effectively improving
airspace efficiency at congested airports, resolving problems with ERAM, and addressing
uncertainty with the NextGen transformational programs. These challenges are
significant and will require sustained management attention and action to safeguard
taxpayers’ investment while improving NAS efficiency and safety. We will continue to
monitor the results of FAA’s organizational changes and efforts to improve the
management of NextGen.


24
     Controller-Pilot Data Link is a method by which air traffic controllers can communicate with pilots over a datalink system,
     similar to wireless email.
25
     OIG Report Number AV-2004-101, “Observations on FAA’s Controller-Pilot Data Link Communications Program,”
     September 30, 2004.
26
     OIG Report Number AV-2012-094, “Status of Transformational Programs and Risks to Achieving NextGen Goals,” April 23,
     2012.



                                                                                                                             14
